   United States Department of Agriculture
   Office of Inspector General




National Organic Program’s List of Allowed
and Prohibited Substances




                                             Audit Report 01601-0001-23
                                             July 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:                  July 20, 2012

AUDIT
NUMBER:                01-601-0001-23

TO:                    David R. Shipman
                       Administrator
                       Agricultural Marketing Service

ATTN:                  Frank Woods
                       Chief
                       Internal Controls and Audits Branch

FROM:                  Gil H. Harden
                       Assistant Inspector General for Audit

SUBJECT:               National Organic Program’s National List of Allowed and
                       Prohibited Substances


Attached is the final report on the subject audit. On June 1, 2012, your office notified us that no
exit conference was needed; as a result, we did not issue an official draft or request a formal
response. Since the report contains no recommendations, no further response to this office is
necessary.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
fieldwork.

Attachment
Table of Contents

Executive Summary .................................................................................................2
Background and Objectives ....................................................................................4
Scope and Methodology...........................................................................................6
Abbreviations ...........................................................................................................7




                                                                             AUDIT REPORT 01601-0001-23                 1
National Organic Program’s List of Allowed and Prohibited
Substances

Executive Summary

The Organic Foods Production Act of 1990 (OFPA), as amended, required the Secretary of
Agriculture (Secretary) to establish a National List1 that identifies both synthetic substances
which may be used and non-synthetic substances that cannot be used in organic production and
handling operations. Any individual, corporation, company, association, partnership, State,
municipality, organization, cooperative, group, or tribe can petition the Secretary to have a
substance evaluated for inclusion onto or removal from the National List. The Secretary
delegated the functions of the Act to the Agricultural Marketing Service AMS and, through
regulations effective in October 2002, the National Organic Program (NOP) was created to
administer these standards and to require the certification of organic production.

The Act also required the Secretary to establish the National Organic Standards Board (NOSB)
to assist in the development of standards for substances to be used in organic production and to
advise the Secretary on any other aspects of the implementation of the Act. The NOSB is
appointed by the Secretary and is comprised of 15 members representing the following
categories: farmers and growers; handlers and processors; retailers; consumer/public interest
advocates; environmentalists; scientists; and certifying agents.

This report presents the results of our audit of the NOP’s2 National List of Allowed and
Prohibited Substances authorized by the OFPA.3 We found that AMS generally had adequate
controls over its processes to either allow or prohibit the addition of new substances to the National
List, as well as to determine when substances already included in the list need to be removed.

Our audit evaluated NOP’s controls and processes to ensure that (1) the guidelines regarding the
composition of the NOSB4 were followed; (2) petitions for the inclusion of new substances to the
National List were complete and met all applicable requirements before approval; (3) the NOSB
followed its established procedures for each review of a petitioned substance; and (4) the Sunset
Provision process to renew, remove, or change annotations to substances already on the National
List was properly followed for each substance we reviewed. This audit was initiated in response
to a Congressional request regarding the NOSB’s processes for adding new substances to the
National List.

Our examination did not disclose any reportable conditions regarding NOP’s and NOSB’s
processes and procedures to allow or prohibit the inclusion of petitioned substances to the
National List. We determined that the NOSB’s reviews of petitioned substances were adequately
documented to establish that the petitions presented to the NOSB were properly evaluated for
sufficiency and eligibility. We concluded that the NOSB followed established processes to

1
  7 CFR §§ 205.600 through 205.607.
2
  Final regulations implementing NOP were published December 31, 2000, and became effective on October 21, 2002.
3
  OFPA as amended through Public Law 109-97, Nov. 10, 2005, Section 2118 7 U.S.C. 6517.
4
  OFPA as amended through Public Law 109-97, Nov. 10, 2005, Section 2119 7 U.S.C. 6518.

2      AUDIT REPORT 01601-0001-23
approve or deny petitions with documented and supported research, transparency to the public,
and adherence to laws and regulations, including NOSB’s Policies and Procedures Manual.5 We
also evaluated the composition of the 2011 NOSB6 by examining the resumes originally
submitted by the board members; as part of this we determined whether their education,
technical qualifications, organic production work experience, and other documented factors
constituted a reasonable basis for their appointments to specific positions on the NOSB. We
concluded that the selection process, which was carried out under the requirements of the Federal
Advisory Committee Act (FACA),7 produced a properly-balanced NOSB membership. We did
not attempt to evaluate the accuracy or completeness of any scientific technical reports or
petitions. In addition, other than our evaluations of whether the NOSB followed its established
processes, we did not reach any conclusions regarding the approval or disapproval of individual
petitions by NOSB.

We also assessed the impact of a hotline complaint that was received during our audit, involving
the NOSB’s approval of a petitioned substance at its November-December 2011 meeting. We
evaluated the report of the Technical Advisory Panel for the substance in question, and found that
all of the requirements for such a review were followed. Based on our review of the NOSB’s
minutes for the meeting at which the petition was evaluated, we concluded that the panel’s findings
were extensively discussed by the board members who were present. Additionally, we reviewed
the NOSB’s voting record for the questioned substance to verify that the vote was completed
according to the NOSB manual. Because we did not interview the complainants, and were not able
to perform an in-depth review of the scientific issues raised, we are not reaching any conclusion as
to the merits of the complaint itself. However, we did conclude that the NOSB followed its
established process for evaluating whether or not the petitioned substance should be added to the
National List.

In summary, we determined that AMS has adequate management controls in place for
administering the National List of Allowed and Prohibited Substances. We did not identify any
significant reportable issues and, as such, are not making any recommendations. Therefore, no
further action or response is required by AMS.




5
  NOSB’s Policies and Procedures Manual, updated April 29, 2011.
6
  Our review was limited to currently-seated board members as of the time of our audit fieldwork.
7
  Federal Advisory Committee Act (Pub. L. 92-463).

                                                                                 AUDIT REPORT 01601-0001-23   3
Background and Objectives

Background
In 1990, the Organic Foods Production Act (OFPA) established nationwide standards for the
production and handling of organic products and required the Secretary of Agriculture
(Secretary) to issue regulations to implement the legislation. The Secretary delegated the
functions of the Act to AMS and, through regulations effective in October 2002, the NOP was
created to administer these standards and to require the certification of organic production. The
Act also required the Secretary to establish the NOSB to assist in the development of standards
for substances to be used in organic production and to advise the Secretary on any other aspects
involving the implementation of the Act. The 15 members of the NOSB – who are appointed by
the Secretary following a review of their qualifications by the management of NOP – represent
various interest groups including: farmers and growers; handlers and processors; retailers;
consumer/public interest advocates; environmentalists; scientists; and certifying agents.

After the Act was implemented, the Secretary was required to establish the National List,8 which
can only be amended through the National List Petition Process.9 Any individual, corporation,
company, association, partnership, State, municipality, organization, cooperative, group, or tribe
is qualified to petition to have a substance evaluated for inclusion in or removal from the
National List. The National List identifies synthetic substances that are allowed in organic
production and non-synthetic substances that are prohibited in organic crop and livestock
production. It also identifies non-agricultural non-synthetic, non-agricultural synthetic, and non-
organic agricultural substances that may be used in organic handling.

The National List was implemented on October 21, 2002, and initially included over
200 substances. When a substance is added to the National List, it remains there for 5 years after
the final rule allowing its inclusion becomes effective. Then, as required by the Sunset Provision
in OFPA,10 the NOSB must publicly review the substance at least once every 5 years thereafter
to either reaffirm or reject its continued inclusion on the National List. The first of these Sunset
Provision reviews was completed in October 2007. Decisions made under the Sunset Provision
must be transparent, non-arbitrary, based on the best current information, and in the interest of
the organic community and of the public at large.

Members of the NOSB represent various sectors of the organic community, and some hold
advanced degrees in one or more scientific areas. However, due to the wide range of substances
or topics that can be involved in any given petition, the members may require outside expertise
to make informed decisions. In such cases, the NOSB has the option of requesting assistance
from third-party experts to obtain a written technical review regarding the petitioned substance.
When NOSB recommends that third-party experts be brought in, NOP contracts out the services
of a Technical Advisory Panel (TAP) to evaluate the scientific and technical issues associated
with the use of the substance in organic production.

8
  7 CFR §§ 205.600 through 205.607.
9
  7 CFR § 205.
10
   OFPA (7 U.S.C. 6517 (e)).

4      AUDIT REPORT 01601-0001-23
The NOSB reviews information from various sources to evaluate substances for inclusion or
removal from the National List. Evaluation sources used by the NOSB include the TAP11
evaluations, the Environmental Protection Agency, the Food and Drug Administration, the
National Institute of Environmental Health Studies, and comments from the public. The NOSB
submits its recommendations, the TAP evaluation, and any other evaluations, to the Secretary for
consideration.12 Upon receipt of the recommendation, the Secretary evaluates the NOSB’s
recommendation and makes the final decision regarding the approval or disapproval of a petition,
or for the retention or removal of a substance reviewed under the Sunset Provision.

Objectives
Our audit objective was to evaluate the controls and processes governing the National List of
Allowed and Prohibited Substances. Specifically, we evaluated the processes used by NOP and
the NOSB to review and approve petitions for the inclusion of new substances to the National List,
and for evaluating existing substances under the Sunset Provision.




11
   National Organic Standards Board Policy and Procedure Manual, revised October 28, 2010, pg 5 - TAPs “provide scientific
   evaluation of the materials considered for inclusion in the National List. Such panels may include experts in agronomy,
   entomology, health sciences and other relevant disciplines.”
12
   Section 2118(d) of the OFPA (7 U.S.C. 6517(d)).

                                                                               AUDIT REPORT 01601-0001-23                    5
Scope and Methodology
We performed our audit at AMS Headquarters in Washington, D.C. We evaluated the NOP and
NOSB processes to either approve or deny petitions to add new substances to the National List.
We reviewed 12 of 405 substances that were petitioned for inclusion on the National List from
the time of its inception in FY 2002 through November 2011. Additionally, we verified 12
substances that were already on the National List, to ensure that they were reviewed every 5
years under the Sunset Provision. The scope of our audit was FYs 2002 to 2010 to evaluate
initial substances as well as substances added in later years to the National List. However, our
evaluation of the processes used to fill NOSB vacancies concentrated on current operations only,
and was therefore limited to the board membership as it existed at the time of our audit. We
conducted our fieldwork from October 2011 through February 2012.

To accomplish our objectives we performed the following:

    ·    Interviewed NOP officials to gain an understanding of laws and regulations for approving
         or denying the addition of petitioned substances to the National List.

    ·    Reviewed documentation detailing the qualifications of all current NOSB members in
         terms of education, technical qualifications, and experience in organic food production
         and handling operations.

    ·    Examined and tested 12 petitioned substances to evaluate whether the NOSB followed its
         established processes when determining whether to recommend substances for inclusion
         on the National List. We judgmentally selected petitions from FYs 2002-2010, including
         petitions both with and without third party technical reviews.

    ·    Verified the documentation of technical reports used by the NOSB to allow or prohibit
         substances to the National List.

    ·    Assessed NOP’s review of petitioned substances for sufficiency and eligibility.

    ·    Verified the accuracy of the NOSB voting process.

    ·    Assessed and tested 12 substances reviewed under the Sunset Provision. We
         judgmentally selected these from the group of substances that were incorporated into the
         initial version of the National List, which came up for their Sunset reviews in FY 2008.

    ·    Verified that the NOP properly applied the proposed and final rulemaking process to
         substances in our judgmental sample.


We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

6       AUDIT REPORT 01601-0001-23
Abbreviations
AMS.....................Agricultural Marketing Service
FACA...................Federal Advisory Committee Act
FY ........................Fiscal Year
NOP......................National Organic Program
NOSB...................National Organic Standards Board
OFPA ...................Organic Foods Production Act
OIG .....................Office of Inspector General
TAP ......................Technical Advisory Panel
USDA...................United States Department of Agriculture




                                                                 AUDIT REPORT 01601-0001-23   7
Informational copies of this report have been distributed to:

Administrator, Agricultural Marketing Service
Attn: Agency Liaison Officer (2)

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Attn: Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
